No.

In The

Supreme Court of the United States

INES COLLEEN ROBINSON,
Petitioner,
V.

STATE OF FLORIDA,

Respondent.

PROOF OF SERVICE

I, William M. Kent, do declare that on this date, June 11, 2021, pursuant

to Supreme Court Rules 29.3 and 29.4,1 have served the attached PETITION FOR
WRIT OF CERTIORARI with attached Motion to Proceed In Forma Pauperis on

each party to theabove proceeding, or thatparty's counsel, andon every other person
required to be served by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first-class
postage prepaid.

Ines Robinson
155733
Hemando Correctional Institution

16415 Spring Hill Drive
Brooksville, FL 34604

Office of the Attorney General
444 Seabreeze Blvd.

Fifth Floor

Daytona Beach, FL 32118
(crimappdab@myfloridalegal.coni))

A F F IA NT

